No. 19In the

Supreme Court of the United States
H.B. A MINOR, INDIVIDUALLY, AND AS
SUCCESSOR IN INTEREST TO MICHELLE LEE
SHIRLEY, BY AND THROUGH HIS GUARDIAN
AD LITEM, RONNIE SHIRLEY,
Petitioner,
v.
CITY OF TORRANCE, DUSTY GARVER, JASON
SENA, SCOTT NAKAYAMA,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI
Cynthia Goodman, Esq.
(SBN 105693)
Counsel of Record
Boris Treyzon, Esq.
(SBN 188893)
A bir Cohen Treyzon Salo, LLP
16001 Ventura Blvd. Suite 200
Encino, California 91436
(424) 288-4367
cgoodman@actslaw.com
Counsel for Petitioner
295850

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
In Scott v. Harris, 550 U.S. 372, 127 S.Ct 1769, 167
L.Ed. 2d, 686, (2007) the Supreme Court reversed the
Eleventh Circuit Court of Appeal’s affirmation of the
district court’s summary judgment order permitting a
Fourth Amendment claim to proceed against a deputy.
Scott acknowledged that on summary judgment, facts
must be viewed in the light most favorable to the
nonmoving party. It found, however, that a video taken
of the events capturing an excessive force claim blatantly
contradicted plaintiff’s version of the facts. Based upon
the video and evidence of a high-speed chase preceding
the shooting, it held that the deputy’s use of lethal force
was objectively justified. Since Scott, decisions out of the
Ninth and Tenth Circuits have used Scott as precedent
for granting summary judgments in excessive force cases
based upon their own interpretation of videos, even where
plausible, alternative interpretations result in material
disputes concerning the objective reasonableness of the
officer’s conduct.
Other circuits, including the Sixth, Seventh and
Eighth have issued decisions suggesting that summary
judgment should be denied unless videos blatantly
contradict plaintiff’s version of the facts. Review should be
granted to address these issues and clarify the Supreme
Court’s holding in Scott.
One question is presented:
In a 42 USC § 1983 action where videos capturing
the claimed use of excessive force are open to multiple
interpretations as to whether the use of lethal force was

ii
objectively reasonable because of an “actual or imminent”
threat to officers or third parties, does Scott v. Harris, 550
U.S. 372, 127 S.Ct 1769, 167 L.Ed. 2d 686 permit the court
to decide the excessive force issue on summary judgment?

iii
LIST OF PARTIES
The parties below are listed in the caption.

iv
CORPORATE DISCLOSURE STATEMENT
Appellants are individuals.

v
STATEMENT OF RELATED CASES
H.B., a minor, individually, and as successor in interest
to Michelle Lee Shirley, by and through his Guardian Ad
Litem, RONNIE SHIRLEY vs. CITY OF TORRANCE,
a California municipal entity; TORRANCE POLICE
DEPARTMENT, a California municipal entity; MARK
MATSUDA, an individual, Case No.: 2:17-cv02373 SJOGJS, U.S. District Court for the Central District of
California, Western Division; Order Denying Summary
Judgment Entered August 14, 2018, Judgment entered
on April 13, 2020
H.B., a minor, individually, and as successor in interest
to Michelle Lee Shirley, by and through his Guardian Ad
Litem, RONNIE SHIRLEY vs. CITY OF TORRANCE,
a California municipal entity; TORRANCE POLICE
DEPARTMENT, a California municipal entity; MARK
MATSUDA, an individual, Case No. 18-56180, Ninth
Circuit Court of Appeal; Order Reversing Summary
Judgment entered on December 23, 2019, Order Denying
Petition for Rehearing on January 30, 2020
H.B., a minor, individually, and as successor in
interest to Michelle Lee Shirley, by and through his
Guardian Ad Litem, RONNIE SHIRLEY vs. CITY OF
TORRANCE, a California municipal entity; TORRANCE
POLICE DEPARTMENT, a California municipal entity;
MARK MATSUDA, an individual, Case No. BC655480,
Los Angeles Superior Court of the State of California,
Pending.

vi
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
CORPORATE DISCLOSURE STATEMENT . . . . . . . iv
STATEMENT OF RELATED CASES . . . . . . . . . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
CONST I T U T IONA L A N D STAT U T ORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR ALLOWANCE OF THE WRIT . . . . 4
Review Should be Granted to Resolve
Conflicting Decisions Between the Circuits
Addressing Scott and Plumhoff and
the Court’s Role Interpreting Videos
Which Do Not Blatantly Conf lict the
Plaintiff’s Version of the Facts  . . . . . . . . . . . . . . 6
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

vii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT,
FILED DECEMBER 23, 2019  . . . . . . . . . . . . . . . . . 1a
APPENDIX B — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA,
DATED AUGUST 14, 2018 . . . . . . . . . . . . . . . . . . . . . 6a
Appendix C — DENIAL OF REHEARING
of the UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT,
DATED JANUARY 30, 2020 . . . . . . . . . . . . . . . . . . 27a

viii
TABLE OF CITED AUTHORITIES
Page
CASES:
Crawford-El v. Britton,
523 U.S. 574 (1998)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
United States v. Diebold, Inc.,
369 U.S. 654, 82 S. Ct. 993, 8 L. Ed. 2d 176
(1962) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Gant v. Hartman,
924 F. 3d 445 (7th Cir. 2019) . . . . . . . . . . . . . . . . . . . . . 9
Graham v. Conner,
490 U.S. 386 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Latits v. Phillips,
878 F.3d 541 (6th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . 9
Plumhoff v. Rickard,
572 U.S. 765, 134 S. Ct. 2012,
188 L. Ed 2d 1056 . . . . . . . . . . . . . . . . . . . . . . . . passim
Scott v. Harris,
550 U.S. 372, 127 S. Ct 1769, 167 L. Ed. 2d 686
(2007)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5, 6, 10
Tennessee v. Garner,
471 U.S. 1 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

ix
Cited Authorities
Page
Thomas v. Durastanti,
607 F. 3d 655 (10th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 8
Thompson v. Monticello, Arkansas, City of,
894 F. 3d 993 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9
Tolan v. Cotton,
572 U.S. 650, 124 S. Ct. 1861, 188 L. Ed. 2d 895
(2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Statutes and Other Authorities:
Fed. R. Civ. P. 56 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 4, 9
42 U.S.C. § 1985  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
42 U.S.C. § 1986  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
42 U.S.C. § 1988  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

1
OPINION BELOW
The December 23, 2019 unpublished opinion of the
United States Court of Appeals for the Ninth Circuit
is found at 790 Fed. Appx. 60. That decision reversed
the August 14, 2018 denial of summary judgment by the
United States District Court for the Central District of
California. Appellant’s Petition for Panel Rehearing and
Rehearing En Banc was denied on January 30, 2020.
STATEMENT OF JURISDICTION
On December 23, 2019, the Ninth Circuit Court of
Appeals issued its order reversing the denial of summary
judgment and ordered the district court to dismiss
petitioner’s federal claims. On January 30, 2020, the
Ninth Circuit denied Petitioner’s Petition for Rehearing.
On March 19, 2020, the United States Supreme Court
issued Order 589 extending the time to file this petition
to 150 days from the date of the lower court judgment,
order denying discretionary review or order denying a
timely petition for rehearing as a result of health concerns
relating to COVID-19. On April 13, 2020, the district court
entered judgment against Petitioner.
This Court’s jurisdiction is invoked under 28 U.S.C
§ 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
42 U.S.C. § 1983 which provides, “Every person who,
under color of any statute, ordinance, regulation, custom,
or usage, of any State or Territory or the District of

2
Columbia, subjects, or causes to be subjected, any citizen
of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws, shall
be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that
in any action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity, injunctive
relief shall not be granted unless a declaratory decree
was violated or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress applicable
exclusively to the District of Columbia shall be considered
to be a statute of the District of Columbia.”
STATEMENT OF THE CASE
1. Petitioner is the minor child of Michelle Shirley
(“Shirley” or “the decedent”). Petitioner’s evidence showed
that prior to the incident, Shirley had been traveling at an
average of 27 miles per hour. There was no evidence that
Shirley had hit a person or property; there was a radio
call reporting erratic driving. In response to the radio
call, respondent officers, Dusty Garver, Jason Sena and
Scott Nakayama (collectively referenced as “respondents”)
followed Shirley in what can be described as a slow “chase.”
Eventually, her car was stopped by a pit maneuver. There
was no evidence that Shirley had committed a felony either
before, or after, the pit maneuver. By the time Shirley
had been “pitted”, the airbag of Shirley’s Ford Focus had
deployed, her car was semi-disabled, and her radio was
blaring. Officers observed her “thousand mile” stare and
a “blank, unfocused gaze” as she laughed at them and
gave them the finger. There was no evidence she had any
guns and both hands had been observed by the officers.
Plainly, Shirley was suffering from a mental breakdown.

3
A fter the pit maneuver, Shirley’s vehicle was
surrounded on three sides by patrol cars. Multiple
videos captured the next sequence of events. During a
50 second period after the pit maneuver, Shirley’s car
is stationary. Some officers are seen laughing, although
some officers have their guns are drawn. There is no
attempt to evacuate the adjacent gas station or blockade
adjacent streets. Officers do not take cover behind their
vehicles and Shirley’s avenue of escape is not completely
cut-off. After the 50 second interlude, Shirley’s vehicle
slowly lurches forward; almost immediately the officers
unload their guns onto Shirley, firing over 30 shots in two
sequences, killing her.
Respondents sought summary judgment based upon
the affirmative defense of qualified immunity. The district
court found that, viewing the videos in the light most
favorable to petitioner, the videos could be interpreted to
show that Shirley was slowly attempting to escape and
avoid the officers in her path and that some or all of the
officers’ movements objectively confirmed that the officers
interpreted Shirley’s movements as non-threatening.
On appeal, the Ninth Circuit, viewing the same
videos, reached a different conclusion, finding that Shirley
“accelerated outward in the direction of at least one of the
officers, toward a lane for oncoming traffic and a nearby
gas station.” (Appendix A; 3a) The panel concluded,
without consideration of whether each officers’ use of lethal
force was objectively reasonable, that a reasonable officer
would perceive Shirley’s actions as an imminent threat to
the other officers or the public.

4
2. On March 27, 2017, Petitioner filed his initial
complaint which included a claim for Violation of Federal
Civil Rights, 42 U.S.C. §1983,1985,1986, 1988 arising
from the death of his mother, Shirley. The district court
entered its order on August 14, 2018. On December 23,
2019, the Ninth Circuit Court of Appeal issued its opinion
reversing the district court’s order and remanding it to
the district court to consider the state court claims arising
from the same incident. On January 6, 2020 petitioner
filed his petition for panel rehearing and rehearing en
banc which was denied on January 30, 2020. Following
remand, on April 13, 2020, the district court dismissed
the federal claims in the Second Amended Complaint and
dismissed the state claims without prejudice to re-filing
in state court.
REASONS FOR ALLOWANCE OF THE WRIT
It is well established that a police officer may not
seize an unarmed, nondangerous suspect by shooting him
dead.” Tennessee v. Garner (1985) 471 U.S. 1, 11, 105 S. Ct.
1694, 85 L. Ed. 1 (1985). Defendants must establish that
there was no genuine issue of material fact and that the
affirmative defense of qualified immunity was established
as a matter of law. Crawford-El v. Britton 523 U.S. 574,
118 S.Ct. 1584, 140 L. Ed. 2d. 759 (1998)
Scott v. Harris, 550 U.S. 372, 127 S.Ct 1769, 167 L.Ed.
2d 686 (2007) and Plumhoff v. Rickard 572 U.S. 765, 134
S.Ct. 2012, 188 L. Ed 2d 1056 (2014), both involved the
use of lethal force by officers where the plaintiff had led
them on high speed chases. In Scott, with the benefit of
a video which “blatantly contradicted” plaintiff’s version
of the facts, the Supreme Court held that the officers’

5
use of lethal force was objectively justified and thus the
officers were entitled to qualified immunity. Likewise, in
Plumhoff, it was undisputed that the plaintiff had engaged
in a high speed chase and almost hit an officer as he was
maneuvering to continue the chase. The Supreme Court
held that summary judgment was warranted and that
the officers were entitled to qualified immunity. Each
of these cases involved undisputed evidence that the
plaintiff constituted an actual and imminent threat to
the officers and the public based both on the high speed
chase preceding the incident and the circumstances of
the incident itself.
In the cases cited, the Ninth and Tenth circuits
reversed denials of summary judgment based upon their
independent interpretation of the videos and other factors
which differed from the lower court’s interpretations.
Other circuits, including the Sixth, Seventh and Eighth
concluded summary judgment or interlocutory appeal
inappropriate because videos were open to interpretation
on the issue of the objective reasonableness of an officer’s
use of force. Each of these cases purported to be guided
by the principles set forth in Scott and Plumhoff.
Under Graham v. Conner 490 U.S 386, 396, 109 S. Ct.
1865, 1872, 104 L.Ed. 2d 443 (1989), a claim of excessive
force requires balancing the “nature and quality of the
intrusion” on a person’s liberty with the “countervailing
governmental interests at stake” to determine whether
the use of force was objectively reasonable under the
circumstances.
Review is necessary to clarify the court’s role in
deciding the Graham factors on summary judgment based
upon a review of videos subject to multiple interpretations.

6
Review Should be Granted to Resolve Conflicting
Decisions Between the Circuits Addressing Scott
and Plumhoff and the Court’s Role Interpreting
Videos Which Do Not Blatantly Conflict the
Plaintiff’s Version of the Facts
In Scott v. Harris 550 U.S. 372, 127 S. Ct. 1769, 167
L. Ed. 2d 686, (2007), an officer used deadly force to
terminate a high-speed chase. The Supreme Court held
that where a video “blatantly contradicted” plaintiff’s
version of events, the court should review the facts in the
light depicted by videotape that captured the events of the
excessive force claim. The court stated, “When opposing
parties tell two different stories, one of which is blatantly
contradicted by the record, so that no reasonable jury
could believe it, a court should not adopt that version of
the facts for purposes of ruling on a motion for summary
judgment.” (emphasis added). Scott at 550 U.S. 372, 380.
The Supreme Court concluded that based upon facts
depicted in the videotape, summary judgment should be
granted in favor of the officer.
Later, in Plumhoff v. Rickard 572 U.S. 765, 134 S.Ct.
2012, 188 L. Ed 2d 1056 (2014) the Supreme Court held
that officers did not violate the Fourth Amendment when
they shot into the decedent’s car where the decedent had
led them on a high-speed chase and was driving away,
almost hitting an officer in the process.
The case at bar involved a slow-speed chase; the
decedent’s vehicle’s air bags had been deployed and her
car was semi-disabled. Shirley was blasting loud music and
exhibiting signs of mental illness. After a pit maneuver,
and following a brief movement of Shirley’s vehicle, videos

7
showed officers shooting over 30 shots in two sequences.
Respondents claimed that they shot Shirley because of
an imminent threat to themselves and the public at large.
The district court found a genuine dispute based upon its
review of the videos and thus whether the officers had
probable cause to believe that Shirley was an immediate
threat to themselves or others. The district court opinion
noted that in the video Shirley, “appears to be turning
left as she accelerates forward, giving a reasonable
impression that she is slowly attempting to escape and
avoid the officers in her path…The officers choose to shoot
Shirley rather than overt or dodge the vehicle, which could
indicate that they knew that they were not in her path
and were instead only attempting to prevent her escape.
….The officers continued shooting after it could or should
have been apparent that there was no person in immediate
danger from Shirley’s vehicle, instead creating the danger
of shooting a bystander or gas canister.” (Appendix B; 16a)
On appeal, and viewing the same video and same
factors, the Ninth Circuit decided that the videos showed
that, “the decedent, having been boxed in by the police
officers, accelerated outward in the direction of at least
one of the officers, toward a lane for oncoming traffic and
a nearby gas station.” (Appendix A; 3a) Based upon this
interpretation of the video, the Ninth Circuit reversed
the district court and found that, “Because the decedent
accelerated toward the officers from only a few feet away,
a reasonable officer under these circumstances would have
perceived the decedent’s actions to constitute a significant
and immediate threat to the officers in the path of her
vehicle and to other members of the public who were in
the vicinity See Plumhoff, 572 U.S. at 775-77.” (Appendix
A; 3a)

8
In Thomas v. Durastanti, 607 F. 3d 655, 607 (10 th
Cir. 2010), the Tenth Circuit reversed the district court’s
denial of summary judgment in which officers asserted the
qualified immunity defense. In Thomas, a significant part,
but not all, of a confrontation between AFT officers and
plaintiffs was caught on a gas station video. Based upon the
video, the district court determined there were disputed
facts as to the speed of plaintiff’s car and the position
of the agent when the agent fired shots at the plaintiff’s
car. The Tenth Circuit reversed, finding that even if the
video did not conclusively establish the speed, and even if
the agent was mistaken (on the trajectory of the vehicle),
“An officer may be found to have acted reasonably even
if he has a mistaken belief as to the facts establishing the
existence of exigent circumstances.” (p. 665)
Other circuits have interpreted the import of videos
which do not “blatantly contradict” other evidence
differently. In Thompson v. Monticello, Arkansas, City
of, 894 F. 3d 993 (2018) the Eighth Circuit affirmed the
denial of a summary judgment based upon qualified
immunity, finding that a video did not “conclusively
disapprove” the plaintiff’s version of events leading to
the 1983 claim. In Thompson, plaintiff was walking home
late at night. Officer Singleton suspected him of a minor
crime. Thompson ignored Singleton’s order to stop and
Singleton used his taser equipped with a video cam. The
Eight Circuit described its rationale for affirming the
denial of the summary judgment as follows, “Singleton
and Thompson each believe the video supports his version
of how the incident transpired. They also disagree as to
whether Thompson’s behavior can be characterized as
aggressive and confrontational such that a reasonable
officer in Singleton’s shoes would have believed he posed

9
an immediate threat. Having reviewed the video, we
note that it captures only part of the incident, and that it
does not clearly show where Thompson’s other hand was
positioned when he turned to point at his house. But the
video does not conclusively disprove Thompson’s view of
the incident. Singleton simply disagrees with ‘the district
court’s conclusions regarding evidence sufficiency and the
genuineness of factual disputes—conclusions that we have
no jurisdiction to review…”(p. 999)
In Gant v. Hartman 924 F. 3d 445 (7th Cir. 2019),
the Seventh Circuit affirmed the denial of a summary
judgment based upon qualified immunity, finding that a
video of the incident giving rise to the 1983 claim did not
“utterly discredit” the plaintiff’s version of the facts.” (p.
450) In Gant, officers responded to a robbery at a Dollar
store. One of the officers fired and shot the plaintiff, hitting
his abdomen. The video recordings could be interpreted
as showing plaintiff in the process of surrendering or,
as claimed by the officer, supporting his concern that
the plaintiff was holding a handgun and preparing to
shoot. The Seventh Circuit found that since issues of
disputed fact were presented, interlocutory appeal was
not available.
Latits v. Phillips 878 F.3d 541 (6th Cir. 2016), involved
a chase at speeds up to 60 miles an hour precipitated by
an initial routine traffic stop and caught on several video
cams. Ultimately, one officer shot and killed the plaintiff’s
decedent. The district court granted summary judgment
for the officer. The Sixth Circuit reversed acknowledging
issues of fact, but found that qualified immunity applied
because the controlling law had not been clearly
established. With respect to the court’s role interpreting

10
videos, the court explained, “To the extent that videos in
the record show facts so clearly that a reasonable jury
could view those facts in only one way, those facts should
be viewed in the light depicted by the videos. See Harris,
550 U.S. at 380, 127 S.Ct. 1769. To the extent that facts
shown in videos can be interpreted in multiple ways or
if videos do not show all relevant facts, such facts should
be viewed in the light most favorable to the non-moving
party. See Godawa, 798 F.3d at 463. Summary judgment
is appropriate if the materials in the record show that
there is no genuine issue as to any material fact and the
movant is entitled to judgment as a matter of law. Id. at
462.” (p. 547)
While these decisions claim to be guided by Scott and
Plumoff, courts of appeal have treated videos which do not
blatantly contradict plaintiff’s version of facts differently
despite recognized standards of review for summary
judgment motions. “….Courts are required to view the
facts and draw reasonable inferences ‘in the light most
favorable to the party opposing the [summary judgment]
motion.’ United States v. Diebold, Inc., 369 U.S. 654, 655,
82 S.Ct. 993, 8 L.Ed.2d 176 (1962) (per curiam); Saucier,
supra, at 201, 121 S.Ct. 2151. In qualified immunity cases,
this usually means adopting (as the Court of Appeals did
here) the plaintiff’s version of the facts.” Scott v. Harris
550 U.S. 372, 378
Scott found that because the videotape clearly refuted
plaintiff’s factual contentions, the court should not adopt
a version of facts contrary to what was represented in
the videotape. However, Scott did not hold that where
the videotape is subject to multiple interpretations, the
courts should ignore contrary interpretations. In ruling

11
on a motion for summary judgment, the evidence of the
nonmovant is to be believed, and all justiciable inferences
are to be drawn in his favor. Fed.Rules Civ. Proc.Rule 56;
Tolan v. Cotton, 572 U.S. 650, 124 S.Ct. 1861, 188 L.Ed.
2d 895 (2014) Summary judgment is appropriate only if
the movant shows that there is no genuine issue as to any
material fact and the movant is entitled to judgment as a
matter of law.
CONCLUSION
Based upon the foregoing, petitioners respectfully
request that the Supreme Court grant review in this
matter.

April 30, 2020

Respectfully Submitted,
Cynthia Goodman, Esq.
(SBN 105693)
Counsel of Record
Boris Treyzon, Esq.
(SBN 188893)
A bir Cohen Treyzon Salo, LLP
16001 Ventura Blvd. Suite 200
Encino, California 91436
(424) 288-4367
cgoodman@actslaw.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT, FILED DECEMBER 23, 2019
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
November 8, 2019, Argued and
Submitted, Pasadena, California;
December 23, 2019, Filed
No. 18-56180
H.B., A MINOR, INDIVIDUALLY, AND AS
SUCCESSOR IN INTEREST TO MICHELLE LEE
SHIRLEY, BY AND THROUGH HIS GUARDIAN AD
LITEM, RONNIE SHIRLEY,
Plaintiff-Appellee,
v.
CITY OF TORRANCE, A CALIFORNIA MUNICIPAL
ENTITY; MARK MATSUDA, POLICE CHIEF;
DUSTY GARVER, AKA DOE 1; JASON SENA, AKA
DOE 2; SCOTT NAKAYAMA, AKA DOE 3,
Defendants-Appellants,
and
TORRANCE POLICE DEPARTMENT,
A CALIFORNIA MUNICIPAL ENTITY; DOES,
1-100, INCLUSIVE,
Defendants.

2a
Appendix A
Appeal from the United States District Court
for the Central District of California
S. James Otero, District Judge, Presiding
Argued and Submitted November 8, 2019
Pasadena, California
MEMORANDUM*
Before: SCHROEDER and FRIEDLAND, Circuit
Judges, and SILVER,** District Judge.
Defendants-Appellants City of Torrance police officers
Jason Sena, Dusty Garver, and Scott Nakayama appeal
the district court’s denial of qualified immunity. We have
jurisdiction over the officers’ interlocutory appeal under
28 U.S.C. § 1291. See Plumhoff v. Rickard, 572 U.S. 765,
771-73, 134 S. Ct. 2012, 188 L. Ed. 2d 1056 (2014). We
review the district court’s conclusions regarding qualified
immunity de novo. Isayeva v. Sacramento Sheriff’s Dep’t,
872 F.3d 938, 946 (9th Cir. 2017). We reverse.
Defendants are not entitled to qualified immunity if (1)
their conduct violated a constitutional right, and (2) if that
right was “clearly established” at the time of the violation.
Lal v. California, 746 F.3d 1112, 1116 (9th Cir. 2014).
Defendants are therefore entitled to summary judgment
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The Honorable Roslyn O. Silver, United States District
Judge for the District of Arizona, sitting by designation.

3a
Appendix A
if, viewing the facts in the light most favorable to Plaintiff
H.B., their conduct did not violate a constitutional right.
In this case, Plaintiff claims that Defendants violated the
Fourth Amendment by the use of excessive force when
they shot Plaintiff’s decedent. In evaluating a Fourth
Amendment excessive force claim, the most important
factor is whether the decedent posed a significant and
immediate threat of death or serious bodily injury to the
officers, or others in the area. Longoria v. Pinal County,
873 F.3d 699, 705 (9th Cir. 2017).
The parties do not dispute that the situation
confronting the officers is accurately depicted by several
videos in the record. The videos show that the decedent
drove in an erratic manner, including by swerving
repeatedly into oncoming traffic, that posed a danger to
members of the public in a busy metropolitan area. The
videos also show that the decedent, having been boxed in
by the police officers, accelerated outward in the direction
of at least one of the officers, toward a lane for oncoming
traffic and a nearby gas station. Because the decedent
accelerated toward the officers from only a few feet away,
a reasonable officer under these circumstances would have
perceived the decedent’s actions to constitute a significant
and immediate threat to the officers in the path of her
vehicle and to other members of the public who were in
the vicinity. See Plumhoff, 572 U.S. at 775-77.
Plaintiff asserts that the decedent was in an impaired
mental state that should have been obvious to the officers
and should have caused them to perceive less need to
use deadly force. See Longoria, 873 F.3d at 708. Yet

4a
Appendix A
even assuming Defendants should have known that the
decedent was mentally impaired, that would not have
rendered their conduct less reasonable in this case,
because the decedent posed a significant and immediate
threat, leaving Defendants with no opportunity to attempt
to de-escalate the situation.
Because we hold that the officers’ use of deadly force
was objectively reasonable at the time of the shooting, we
reverse the district court’s denial of qualified immunity.
Plaintiff can not establish a violation of the Fourth
Amendment.
In order to prevail on the state law battery and Bane
Act claims, Plaintiff must demonstrate that the officers’
use of force was not reasonable at the time of the shooting.
See Cameron v. Craig, 713 F.3d 1012, 1022 (9th Cir. 2013)
(“[T]he elements of the excessive force claim under [the
Bane Act] are the same as under § 1983.”); Bowoto v.
Chevron Corp., 621 F.3d 1116, 1129 (9th Cir. 2010) (“Under
California law, a plaintiff bringing a battery claim against
a law enforcement official has the burden of proving the
officer used unreasonable force.”). Our determination
that the officers’ use of force was objectively reasonable
“necessarily resolves” those claims. Cunningham v.
Gates, 229 F.3d 1271, 1285 (9th Cir. 2000). We therefore
also hold that the district court should have dismissed
them.
Plaintiffs also have state law negligence and wrongful
death claims. Such claims may be premised on a broader
set of conduct than conduct amounting to excessive force

5a
Appendix A
under federal law. See Hayes v. County of San Diego, 57
Cal. 4th 622, 160 Cal. Rptr. 3d 684, 305 P.3d 252, 263 (Cal.
2013) (holding that “state negligence law, which considers
the totality of the circumstances surrounding any use of
deadly force, is broader than federal Fourth Amendment
law, which tends to focus more narrowly on the moment
when deadly force is used” (citation omitted)); Lopez v.
City of Los Angeles, 196 Cal. App. 4th 675, 126 Cal. Rptr.
3d 706, 714 (Ct. App. 2011) (“The elements of a cause of
action for wrongful death are a tort, such as negligence,
and resulting death.”). A negligence claim thus could be
based on negligent conduct preceding the use of force. The
record in this case contains evidence that the officers may
have been negligent in positioning themselves and their
vehicles so openly. The complaint alleges that the officers
acted unlawfully “prior to and at the time they shot at Ms.
Shirley and her vehicle.” The district court did not consider
these allegations. We remand for it to do so.
REVERSED AND REMANDED.

6a
Appendix
B
APPENDIX B
— OPINION
OF THE
UNITED STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA,
DATED AUGUST 14, 2018
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
CASE NO.: CV 2:17-02373 SJO (GJSX)
DATE: August 14, 2018
PRESENT: THE HONORABLE S. JAMES OTERO,
UNITED STATES DISTRICT JUDGE
Victor Paul Cruz				
Not Present
Courtroom Clerk				Court Reporter
PROCEEDINGS (in chambers): ORDER GRANTING
IN PART AND DENYING IN PART DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT [Docket No. 93]
This matter is before the Court on Defendants City
of Torrance (“City”), Mark Matsuda (“Matsuda”), Dusty
Garver (“Garver”), Jason Sena (“Sena”), and Scott
Nakayama’s (“Nakayama”) (collectively, “Defendants”)
Motion for Summary Judgment (“Motion”), filed July 9,
2018. Plaintiff H.B, a minor by and through his guardian
ad litem Ronnie Shirley (“H.B.” or “Plaintiff”), opposed
the Motion (“Opposition”) on July 23, 2018. Defendants
filed their reply (“Reply”) on July 30, 2018. The Court
found the matter suitable for disposition without oral

7a
Appendix B
argument and vacated the hearing set for August 13,
2018. See Fed. R. Civ. P. 78(b). For the following reasons,
the Court GRANTS IN PART and DENIES IN PART
Defendants’ Motion.
I.

FACTUAL AND PROCEDURAL BACKGROUND
A.

Procedural Background

On March 27, 2017, Plaintiff filed this civil rights
action on behalf of Michelle Lee Shirley (“Shirley” or
“Decedent”), Plaintiff’s deceased mother. (See generally
Compl., ECF No. 1.) Plaintiff filed a First Amended
Complaint (“FAC”) on May 26, 2017, alleging eight
causes of action. (FAC, ECF No. 23.) On June 23, 2017,
Defendants moved to dismiss Plaintiff’s third cause of
action for negligent hiring, Plaintiff’s fifth cause of action
for violation of the Ralph Civil Rights Act, and Plaintiff’s
seventh cause of action for liability under Monell. (See
generally Mot. to Dismiss, ECF No. 28.) The Court
granted Defendants’ motion with leave to amend. (Order
Granting Defs.’ Mot. to Dismiss, ECF No. 36.) On August
28, 2017, Plaintiff filed a Second Amended Complaint
(“SAC”), alleging the following causes of action:
(1) Wrongful Death
(2) Negligence
(3) Violation of the Bane Civil Rights Act, California Civil
Code § 52.1 (“Bane”)
(4) Violation of the Ralph Civil Rights Act, California Civil
Code § 51.7 (“Ralph”)
(5) Violation of Federal Civil Rights, 42 U.S.C. §§ 1983,

8a
Appendix B
1985, 1986, 1988 (“1983”)
(6) Violation of Federal Civil Rights: Monell Claim, 42
U.S.C. §§ 1983, 1985, 1986, 1988 (“Monell”)
(7) Battery
(See generally SAC, ECF No. 37.) Defendants move for
summary judgment on all seven of Plaintiff’s claims, as
well as Plaintiff’s claim for punitive damages.
B. Statement of Undisputed Facts
The following facts are not reasonably in dispute
or are construed in favor of Plaintiff, the nonmoving
party. On October 31, 2016, Shirley was shot and killed
by Torrance Police Department (“TPD”) officers on
the northwest corner of Cabrillo Avenue and Sepulveda
Boulevard, near a Chevron gas station.1 (Pl’s Statement
of Genuine Disputes (“PSGD”) ¶ 1, ECF No. 116.) The
TPD officers involved in or present at the shooting were
Defendants Sena, Garver, and Nakayama, as well as
Michael Guell (“Guell”), Edward LaLonde (“LaLonde”),
Juhn Lee (“Lee”), and Brian Okazaki (“Okazaki”). (PSGD
¶ 2.) On that date, Sena was working uniformed traffic
enforcement on a marked police motorcycle and Nakayama
and Garver were working uniformed patrol in marked
police vehicles. (PSGD ¶¶ 2-4.) All three were armed with
Department-issued Glock handguns. (PSGD ¶¶ 2-4.)

1. The parties assert a number of evidentiary objections in their
various filings. To the extent that the Court relies on any evidence
that has been objected to, the Court will address the objections infra.

9a
Appendix B
At approximately 2:30 p.m. on October 31, Sena
received a call from Dispatch regarding a possible DUI
driver in downtown Torrance, later determined to be
Shirley. (PSGD ¶ 5; Decl. Derek Chaiken in Supp. Opp’n
(“Chaiken Decl.”) Ex. A (“Dispatch”) 00:24-33, ECF No.
118.) The broadcast, which was also heard by Nakayama
and Garver, reported that the driver was operating a
gray Ford erratically, honking, and that her air bag had
been deployed. (PSGD ¶ 6, Dispatch 00:36-1:24.) Sena
identified the vehicle as it was driving on Post Avenue
towards Carson Street, and observed that there was major
passenger side traffic collision damage on the vehicle and
that the horn was activating on its own. (PSGD ¶ 7.) As
Shirley drove past Sena, she raised her middle finger and
looked directly at him. (PSGD ¶ 7.)
Shirley continued to drive erratically and Sena
informed Dispatch of his pursuit and the direction they
were heading. (PSGD ¶ 8.) In particular, Sena notified
Dispatch that Shirley was driving into oncoming traffic
and that a couple of units would be needed to perform
Precision Intervention Technique (“PIT”) on her car.
(PSGD ¶ 9.) PIT is a maneuver designed to push a vehicle
into a spin, intended to stop a vehicle without causing injury
or significant damage. (PSGD ¶ 9.) Shirley continued to
drive erratically in the downtown area toward Torrance
High School. (PSGD ¶¶ 10-11.)
Sena was joined by Officers Guell, Okazaki, and
Nakayama. (PSGD ¶¶ 12-13.) The officers observed
Shirley’s erratic driving and eventually were able to
perform a PIT maneuver. (PSGD ¶¶ 14-15.) After Shirley’s

10a
Appendix B
car stopped spinning, Nakayama positioned his car so that
its front bumper was nearly touching the front bumper of
Shirley’s car, then took cover behind his driver’s side door.
(PSGD ¶ 16.) Guell and Sena stopped their motorcycles
and took cover behind Nakayama’s passenger side door.
(PSGD ¶ 16.) Garver arrived, positioned his vehicle on
the driver’s side of Nakayama’s vehicle, exited and stood
behind his door. (PSGD ¶ 16.) Lee arrived several seconds
after Garver, positioned his vehicle on the passenger’s side
of Nakayama’s vehicle, and stood outside his driver’s door.
(PSGD ¶ 16.) Okazaki pulled onto Sepulveda Boulevard
and exited his vehicle to stop traffic in the intersection.
(PSGD ¶ 16.) Sena and Nakayama drew their guns, while
Guell drew a non-lethal taser. (PSGD ¶ 16.)
Shirley’s car was still running, playing the radio
loudly, and honking, and she remained seated inside her
car. (PSGD ¶ 17.) The officers’ view of the interior of the
car was obscured by the passenger side airbags. (PSGD
¶ 17.) The officers commanded Shirley to keep her hands
up; Shirley raised her middle fingers towards the officers
and smiled. (PSGD ¶ 18, Pl’s Statement of Additional
Material Facts (“PSAMF”) ¶ 80.) Shirley had a blank,
unfocused gaze. (PSGD ¶ 18; PSAMF ¶ 81.) Garver called
for a unit to block Shirley in. (PSGD ¶ 18.)
LaLonde drove his vehicle around to the back of
Shirley’s vehicle and attempted to box her in. (PSGD
¶ 19.) While LaLonde was driving to the back of Shirley’s
vehicle, Shirley’s right hand came down and, with her left
middle finger still raised and still smiling, Shirley’s vehicle
slowly rolled forward and bumped into Nakayama’s car.

11a
Appendix B
(PSGD ¶ 2; Chaiken Decl. Ex. A-1 (“Folsom Video”) 00:0102.) Shirley then reversed her vehicle and collided with
LaLonde’s front bumper as he continued to drive towards
her. (PSGD ¶ 21; Folsom Video 00:23-35.) LaLonde jumped
out of his vehicle and ran towards Lee’s car. (PSGD ¶ 22;
Folsom Video 00:26-30.) After a brief pause, Shirley’s
vehicle accelerated forwards toward the parked cars in
front of her and Officers Sena, Nakayama, Guell, and
Garver, sharply turning left to avoid collision. (PSGD
¶¶ 23-24; PSAMF ¶ 82; Folsom Video 00:30-35.) Officers
Sena, Garver, and Nakayama opened fire on Shirley’s car,
firing a combined total of up to thirty-five (35) bullets.
(PSGD ¶¶ 23, 28, 36; PSAMF ¶ 1, Folsom Video 00:30-39.)
While this was occurring, Lee jumped back into his
car and attempted to pull forward to block Shirley from
escaping. (PSGD ¶ 24.) Shirley collided with Lee’s car
and then crossed over the sidewalk, through a hedge,
into a concrete pole in an adjacent gas station. (PSGD
¶¶ 24-25.) The officers did not stop firing their weapons
at the vehicle until after Shirley’s car came to a complete
stop. (PSGD ¶¶ 24-25; Folsom Video 00:39.) After taking
some time to ensure that Shirley would not continue to
operate her vehicle and did not have a weapon, Shirley
was pulled out of her car and several officers administered
CPR until an ambulance arrived. (PSGD ¶¶ 25, 31-33, 38.)
There were several bystanders at the gas station and in
the neighborhood who witnessed the incident, and some
recorded videos of the incident with their mobile phones.
(PSGD ¶¶ 40, 51, 54, 63, 65.)

12a
Appendix B
II. LEGAL STANDARD
Federal Rule of Civil Procedure 56(a) mandates
that “[t]he court shall grant summary judgment if the
movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law.” Fed. R. Civ. P. 56(a). The moving party,
Defendants, bear the initial burden of establishing the
absence of a genuine issue of material fact. See Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986). “When the party
moving for summary judgment would bear the burden of
proof at trial, it must come forward with evidence which
would entitle it to a directed verdict if the evidence went
uncontroverted at trial.” C.A.R. Transp. Brokerage Co.
v. Darden Rests., Inc., 213 F.3d 474, 480 (9th Cir. 2000)
(citations omitted).
Once the moving party meets its initial burden, the
“party asserting that a fact cannot be or is genuinely
disputed must support the assertion.” Fed. R. Civ. P. 56(c)
(1). “The mere existence of a scintilla of evidence in support
of the [nonmoving party]’s position will be insufficient;
there must be evidence on which the jury could reasonably
find for the [nonmoving party].” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 252 (1986); accord Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
586 (1986) (“[O]pponent must do more than simply show
that there is some metaphysical doubt as to the material
facts.”). Further, “[o]nly disputes over facts that might
affect the outcome of the suit . . . will properly preclude
the entry of summary judgment [and f]actual disputes
that are irrelevant or unnecessary will not be counted.”

13a
Appendix B
Anderson, 477 U.S. at 248. A court is required to draw
all inferences in a light most favorable to the nonmoving
party. Matsushita, 475 U.S. at 587.
III. DISCUSSION
A.

Excessive Force and Substantive Due Process
(Fifth Cause of Action)

Plaintiff alleges that Defendants: (1) violated
Decedent’s Fourth Amendment right to be free from
excessive force; and (2) deprived Decedent’s right of life
and liberty in violation of the Fourteenth Amendment.
(See SAC ¶¶ 65-80.) Plaintiff grounds these claims on
Section 1983 of the Civil Rights Act. That section provides,
in relevant part, that:
Ever y person who, u nder color of a ny
statute, ordinance, regulation, custom, or
usage. . . subjects, or causes to be subjected,
any citizen of the United States or other
person within the jurisdiction thereof to
the deprivation of any rights, privileges, or
immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper
proceeding for redress. . . .
Title 42 U.S.C. § 1983. To succeed on a claim under Section
1983, a plaintiff must show: (1) the deprivation of “a right
secured by the Constitution or laws of the United States;”
and (2) “that the alleged deprivation was committed under

14a
Appendix B
color of state law.” Am. Mfrs. Mut. Ins. Co. v. Sullivan,
526 U.S. 40, 49-50 (1999). Defendants argue that they are
entitled to summary judgment on these claims because: (1)
the officers’ use of force was objectively reasonable; and
(2) the officers are entitled to qualified immunity. (Mot.
2-3.) The Court addresses each argument in turn.
1.

Use of Excessive Force – Fourth Amendment

The standard for analysis of the claim for excessive
force is the Fourth A mendment test of objective
reasonableness. Graham v. Connor, 490 U.S. 386, 388
(1989); Jackson v. City of Bremerton, 268 F.3d 646,
651 (9th Cir. 2001). The determination as to whether a
particular use of force was objectively reasonable under
the circumstances requires application of a balancing
test in which the interest of the individual is weighed
against the interest of the government and the public.
Graham, 490 U.S. at 397. Notably, the use of force must be
judged from the perspective of a reasonable officer on the
scene, not clouded with the bias of hindsight. Id. (citation
omitted). Three factors are weighed in a reasonableness
analysis: (1) severity of the crime at issue; (2) nature
of immediate threat posed to officers or others by the
suspect; and (3) whether the suspect is actively resisting
arrest or attempting to evade arrest by flight. Id. The
“most important” of the Graham factors is whether the
decedent posed an immediate threat to the safety of the
officers or others. Smith v. City of Hemet, 394 F.3d 689,
702 (9th Cir. 2005). “[S]ummary judgment should be
granted sparingly in excessive force cases.” Gonzalez v.
City of Anaheim, 747 F.3d 789, 795 (9th Cir. 2014) (en banc)

15a
Appendix B
(citation omitted); Glenn v. Washington Cty., 673 F.3d 864,
871 (9th Cir. 2011) (“Because [the excessive force inquiry]
nearly always requires a jury to sift through disputed
factual contentions, and to draw inferences therefrom,
we have held on many occasions that summary judgment
or judgment as a matter of law in excessive force cases
should be granted sparingly.”) (citation omitted).
The primary issue before the Court is whether a
reasonable jury would necessarily conclude that Officers
Sena, Garver, and Nakayama perceived an immediate
threat of death or serious physical injury at the time
they shot Shirley. Sena declares that at the time Shirley
accelerated forward, he believed that she was going to run
over and kill either himself or Guell. (PSGD ¶ 23.) Garver
declares that at that same time, he saw her sharply turn
left and was afraid she was going to run over and kill
LaLonde, who was running towards Lee’s car at the time.
(PSGD ¶ 27.) Nakayama declares that he was also afraid
that Shirley was going to run over and kill Sena when he
opened fire. (PSGD ¶ 36.)
Many of the undisputed facts would support a finding
that the officers reasonably believed that Shirley posed
an immediate threat to themselves or others. Shirley had
been driving erratically for some time prior to the use of
deadly force, plausibly putting others at risk of collision,
injury or death. (PSGD ¶ 5-11.) Shirley’s erratic driving
was in the middle of the afternoon in a busy downtown
area with at least some pedestrians present during the
subject incident. (PSGD ¶¶ 40, 51, 54, 63, 65.) Shirley
openly defied the officers by raising her middle fingers

16a
Appendix B
at them. (PSGD ¶ 80.) Shirley continued operating her
vehicle even after reversing and crashing into LaLonde’s
car. (PSGD ¶ 21; Folsom Video 00:23-35.) The officers’
belief that at least some of them were in Shirley’s path
when she accelerated forward is likewise plausible. (See
Folsom Video 00:30-35.)
Much of the disputed evidence, however, would
also support a finding that the use of deadly force was
objectively unreasonable. In the video, Shirley appears
to be turning left as she accelerates forward, giving a
reasonable impression that she is slowly attempting to
escape and avoid the officers in her path. (See Folsom
Video 00:30-35.) The officers choose to shoot Shirley rather
than move or dodge the vehicle, which could indicate that
they knew they were not in her path and were instead
only attempting to prevent her escape. (See Folsom Video
00:30-35.) The officers continue shooting after it could or
should have been apparent that there was no person in
immediate danger from Shirley’s vehicle, instead creating
the danger of shooting a bystander or gas canister. (See
Folsom Video 00:39; PSGD ¶ 51 [a pedestrian bystander
was fearful that he was going to be “in the line of fire”].)
And there was some evidence that Shirley was either
physically or mentally impaired during the subject
incident, including her irregular driving, her operation of
the vehicle despite the persistence of the horn and radio,
and her “blank, unfocused gaze.” (PSGD ¶¶ 5-11, 17-18.)
The severity of the crime at issue is also in dispute.
When Sena received the dispatch, the crime at issue was
a possible DUI. (PSGD ¶ 5.) There is no evidence that

17a
Appendix B
Shirley had physically harmed anyone at any time before
or during the subsequent pursuit, and the video evidence
of her driving indicates that she is purposely swerving
to try to avoid collision into people or objects. (See Notice
of Lodging Ex. G (“Bystander Videos”).) The speed at
which Shirley is driving at various times is also in dispute;
according to the officers, she reached up to seventy
(70) miles per hour during the pursuit, while the video
evidence tends to show her driving at much slower speeds.
(PSGD ¶¶ 12-13; Folsom Video; Bystander Videos.) While
Defendants characterize Shirley’s crime as “attempted
murder,” the video also plausibly shows that Shirley was
attempting to avoid hitting the officers and escape, rather
than run them over. (See Mot. 16; Folsom Video 00:30-35.)
Finally, while the evidence demonstrates that Shirley
was in fact attempting to evade arrest by flight, it is well
established that “a police officer may not use deadly force
unless it is necessary to prevent escape and the officer
has probable cause to believe that the suspect poses a
significant threat of death or serious physical injury to the
officer or others.” Smith v. City of Hemet, 394 F.3d 689,
704 (9th Cir. 2005) (citing Tennessee v. Garner, 471 U.S.
1 (1985)). As described above, there is a genuine dispute
as to whether the officers had probable cause to believe
that Shirley was an immediate threat to themselves or
others, or whether the use of deadly force was necessary
to prevent this threat from occurring. While Defendants
cite to Plumhoff v. Rickard, 134 S. Ct. 2012 (2014), in
support of their contention that the use of deadly force was
objectively reasonable, this case is readily distinguishable.
In Plumhoff, the officers had engaged with the decedent in

18a
Appendix B
a dangerous high-speed chase, in excess of 100 miles per
hour and lasting over five minutes, in which the suspect
passed more than 24 vehicles at high speeds and forced
them to alter course. Id. at 2021. After the decedent
collided with a police car, he immediately attempted to
reverse and accelerate toward escape. Id. Here, Shirley
is operating at much slower speeds and with many
pauses, and while her driving is clearly erratic, there
is a genuine dispute as to the extent of the danger her
erratic driving was imposing on others and whether she
was being intentionally reckless or was instead physically
or mentally impaired. Given these disputes, summary
judgment is inappropriate, and the Court DENIES the
Motion on Plaintiff’s excessive force claim.
2.

Substantive Due Process - Fourteenth
Amendment

Plaintiff also alleges that Defendants’ conduct violated
other constitutional rights, including substantive due
process rights under the Fourteenth Amendment. The
Supreme Court has made it clear, however, that “all claims
that law enforcement officers have used excessive force
. . . should be analyzed under the Fourth Amendment
and its ‘reasonableness’ standard, rather than under a
‘substantive due process’ approach. Because the Fourth
Amendment provides an explicit textual source of
constitutional protection against this sort of physically
intrusive governmental conduct, that Amendment, not
the more generalized notion of ‘substantive due process,’
must be the guide for analyzing these claims.” Graham
v. Connor, 490 U.S. 386, 395 (U.S. 1989) (emphasis in

19a
Appendix B
original). As all of Plaintiff’s section 1983 claims in the
SAC are grounded in the officers’ use of deadly force
against Shirley, the only applicable constitutional violation
is Plaintiff’s Fourth Amendment claim.
3.

Qualified Immunity

“Qualified immunity shields an officer from suit
when she makes a decision that, even if constitutionally
deficient, reasonably misapprehends the law governing
the circumstances she confronted.” Brosseau v. Haugen,
543 U.S. 194, 198 (2004). The Supreme Court has set forth
a two-part analysis for considering the issue of qualified
immunity. First, a district court must ask, “[t]aken in the
light most favorable to the party asserting the injury,
do the facts alleged show the officer’s conduct violated a
constitutional right?” Saucier v. Katz, 533 U.S. 194, 201
(2001). If this threshold question is answered affirmatively,
then the court must ask “whether the right was clearly
established.” Id. A right is “clearly established” if, “in light
of the specific context of the case,” it would be “clear to
a reasonable officer that his conduct was unlawful in the
situation he confronted.” Id. at 201–02. “If the law did not
put the officer on notice that his conduct would be clearly
unlawful, summary judgment based on qualified immunity
is appropriate.” Id. at 202.
Here, Plaintiff has put forth a theory of the case that
alleges the following: (1) Shirley had a mental or physical
impairment at the time of the incident that caused her to
drive erratically; (2) despite the impairment, Shirley was
attempting to drive slowly, carefully, and avoid obstacles;

20a
Appendix B
(3) Shirley’s impairment caused her to be non-responsive
and antagonistic towards the officers, but not violent; (4)
when Shirley slowly pulled away from the officers’ vehicles
in an attempt to escape, she was not a danger to them
or to any of the few pedestrians in the vicinity; (5) the
officers had less deadly means to stop her vehicle; (6) the
officers either knew or should have known that Shirley did
not pose an immediate threat to anyone and thus deadly
force was inappropriate; and (7) the officer’s conduct was
unreasonable because, rather than mitigate the harm to
the public, they opened fire near many pedestrians and
gas tanks. (See generally Opp’n.) Construed in the light
most favorable to Plaintiff, the evidence plausibly supports
these allegations.
It is unequivocal that unless the threat to others
posed by Shirley was immediate and substantial, the use
of deadly force is a violation of the Fourth Amendment.
Smith, 394 F.3d at 704. Thus, if it was objectively
unreasonable for the officers to believe that they or others
were in immediate danger of death or serious physical
injury, shooting Shirley to prevent her escape is clearly
unconstitutional. Unreasonable excessive force that
results in the deprivation of life is the most egregious of
Fourth Amendment violations, and, as such, is “clearly
established” under the law. As there is a genuine dispute
on whether the officers’ conduct was reasonable, the Court
cannot determine whether qualified immunity applies at
this stage.

21a
Appendix B
B. Monell Liability (Sixth Cause of Action)
Defendants next move for summary judgment on
Plaintiff’s claim for municipal liability under Monell v.
Dep’t of Social Services of City of New York, 436 U.S. 658
(1978). Monell makes it clear that a municipality cannot be
found liable under 42 U.S.C. § 1983 for merely employing
a tortfeasor. Id. at 690-91. However, a municipality will
be liable for constitutional violations that, “implement[ ]
or execute[ ] a policy statement, ordinance, regulation, or
decision officially adopted or promulgated by the body’s
officers.” Id. at 690. In other words, a municipality is
liable for acts arising from an “official policy or custom.”
Id. at 691. “Customs” or “usages” are covered by Section
1983 because they “could well be so permanent and well
settled as to constitute a ‘custom or usage’ with the force
of law.” Id. (citing Adickes v. S.H. Kress & Co., 398 U.S.
144, 167-68 (1970)).
There are three established scenarios in which a
municipality may be liable for constitutional violations
under § 1983. “First, a local government may be held
liable ‘when implementation of its official policies or
established customs inflicts the constitutional injury.’”
Clouthier v. County of Contra Costa, 591 F.3d 1232, 1249
(9th Cir. 2010) (quoting Monell, 436 U.S. at 708). Second,
Plaintiffs can prevail on a Secton 1983 claim against a city
by identifying acts of omission, such as a pervasive failure
to train its employees, “when such omissions amount to
the local government’s own official policy.” Id. Finally,
Defendants “may be held liable under Section 1983 when
‘the individual who committed the constitutional tort was

22a
Appendix B
an official with final policy-making authority’ or such an
official ‘ratified a subordinate’s unconstitutional decision or
action and the basis for it.’” Id. at 1250 (quoting Gillette v.
Delmore, 979 F.2d 1342, 1346–47 (9th Cir. 1992) (internal
quotation marks and citations omitted)).
In the opposition, Plaintiff generally argues that
the Monell allegations against the City “are based on
the policy of it failing to properly train its officers” that
deadly force “should never be used against a moving
vehicle unless there is an individual about to be run
over and there is no opportunity to get out of the way.”
(Opp’n 21-22.) Plaintiff cites to no legal authority for this
proposition, and it is directly contrary to established law.
The use of deadly force is reasonable where “the officer has
probably cause to believe that the suspect poses a threat of
serious physical harm, either to the office or to others[.]”
Brosseau v. Haugen, 543 U.S. 194, 198 (2004). If the
driver is behaving recklessly and creating a serious risk
of deadly collision, deadly force can be reasonable even if
there is no person in the immediate path of the vehicle. See
Scott v. Harris, 550 U.S. 372, 380 (2007); Plumhoff, 134
S. Ct. at 2012. Moreover, while Plaintiff cites to various
City policies signed by Chief Matsuda that he claims are
inadequate, he does not explain why or how these policies
are responsible for Shirley’s constitutional injury.
Plaintiff finally argues that summary judgment
should be denied because, at the time of the opposition,
the deposition of Chief Matsuda had not yet occurred.
(Opp’n 22.) Plaintiff does not state what kind of evidence
is expected from the deposition of Chief Matsuda, or how

23a
Appendix B
this evidence could plausibly support a claim for liability
under Monell. As Plaintiff has failed to supply a plausible
legal basis for a Monell claim in its opposition, further
discovery will be of little benefit, and the Court GRANTS
Defendants’ motion as to Plaintiff’s Monell claim and
DISMISSES Plaintiff’s sixth cause of action.
C.

Ralph Civil Rights Act (Fourth Cause of Action)

Defendants next move for summary judgment on
Plaintiff’s fourth cause of action for violation of the Ralph
Civil Rights Act. California Civil Code § 51.7 creates
the right for all persons “to be free from any violence,
or intimidation by threat of violence, committed against
their persons or property” on account of their “sex, race,
color, religion, ancestry, national origin, disability, medical
condition, genetic information, marital status, sexual
orientation, citizenship, primary language, or immigration
status.” Cal. Civ. Code §§ 50(b), 51.7. The “elements of a
claim brought under section 51.7 are: (1) the defendant
threatened or committed violent acts against the plaintiff;
(2) the defendant was motivated by his perception of
plaintiff’s race; (3) the plaintiff was harmed; and (4) the
defendant’s conduct was a substantial factor in causing
the plaintiff’s harm.” Knapps v. City of Oakland, 647
F.Supp.2d 1129, 1167 (N.D. Cal. 2009).
To adequately plead a claim under section 51.7,
Plaintiff “must allege facts to support a reasonable
inference that the plaintiff’s race was a motivating factor.”
Boarman v. County of Sacramento, No. 2:11-cv-02825,
2013 WL 38941767 at *2 (E.D. Cal. 2013); see also Winarto

24a
Appendix B
v. Toshiba Am. Elecs. Components, Inc., 274 F.3d 1276,
1290 (9th Cir. 2001) (“[Plaintiff] may not rely on the sole
conclusory allegation that [defendants’] conduct was
‘because of [plaintiff’s] race.’”) Additionally, “a plaintiff’s
own speculation that racial animus motivated defendant’s
action is not sufficient to establish that race was actually
a motivating factor.” Id.; see also Knapps, 647 F.Supp.2d
at 1167 (holding that allegations that plaintiff’s race was
different than the race of the defendant officers who
arrested him without justification was insufficient to show
by preponderance of the evidence that the officers’ conduct
was motivated by plaintiff’s race).
In support of the Ralph claim, Plaintiff points to a
2017 news article that states that Chief Matsuda was
“suspended over allegations that he made remarks against
women, blacks, gays, and Muslims.” (Chaiken Decl. Ex. M.,
ECF No. 121-11.) As an initial matter, newspaper articles
are generally considered “inadmissible hearsay as to their
content.” Larez v. City of Los Angeles, 946 F.2d 630, 642
(9th Cir. 1991). Even taken as true, Chief Matsuda was not
present at the incident in question, and Plaintiff presents
no evidence connecting his alleged conduct with the events
that took place that led to Shirley’s death. Thus, Plaintiff
has not presented sufficient evidence to sustain a claim
for violation of the Ralph Civil Rights Act. While Plaintiff
again moves to delay summary judgment to allow for the
inclusion of evidence from the deposition of Chief Matsuda,
Plaintiff has not plausibly asserted that the deposition
testimony would provide any evidence that would sustain
such a claim. The Court therefore GRANTS summary
judgment as to Plaintiff’s fourth cause of action.

25a
Appendix B
D.

Remaining State Law Claims (First, Second,
Third, and Seventh Causes of Action)

Defendants argue that Plaintiff’s remaining state law
claims for wrongful death, negligence, the Bane Act, and
battery fail because “the force used by the defendants was
objectively reasonable under the circumstances.” (Mot. 2324.) As described above, Defendants have failed to prove
that the force was objectively reasonable as a matter of law.
Summary judgment is therefore DENIED as to Plaintiff’s
first, second, third, and seventh causes of action.
E. Punitive Damages
Defendants finally argue that even if a constitutional
violation has occurred, Plaintiff is not entitled to punitive
damages. A jury “may be permitted to assess punitive
damages in an action under § 1983 when the defendant’s
conduct is shown to be motivated by evil motive or intent,
or when it involves reckless or callous indifference to
the federally protected rights of others.” Smith v. Wade,
461 U.S. 30, 56 (1983). To merit punitive damages, the
defendant’s conduct must be “the sort that calls for
deterrence and punishment over and above that provided
by compensatory awards.” Id. at 54.
Here, Plaintiff has created a triable issue of fact as to
whether opening fire on a mentally impaired individual
who was not creating an immediate danger to others, as
Plaintiff alleges, was objectively unreasonable. A jury who
finds it to be so may also find that these actions involved
“reckless or callous indifference” to Shirley’s constitutional

26a
Appendix B
rights. As such, the issue of punitive damages cannot be
resolved at the summary judgment stage.
III. RULING
For the foregoing reasons, the Court GRANTS IN
PART and DENIES IN PART Defendants’ Motion for
Summary Judgment.
IT IS SO ORDERED.

27a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT, DATED JANUARY 30, 2020
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-56180
D.C. No. 2:17-cv-02373-SJO-GJS
Central District of California, Los Angeles
H.B., A MINOR, INDIVIDUALLY, AND AS
SUCCESSOR IN INTEREST TO MICHELLE LEE
SHIRLEY, BY AND THROUGH HIS GUARDIAN AD
LITEM, RONNIE SHIRLEY,
Plaintiff-Appellee,
v.
CITY OF TORRANCE, A CALIFORNIA
MUNICIPAL ENTITY; MARK MATSUDA,
POLICE CHIEF; DUSTY GARVER, AKA DOE 1;
JASON SENA, AKA DOE 2; SCOTT NAKAYAMA,
AKA DOE 3,
Defendants-Appellants,
and
TORRANCE POLICE DEPARTMENT,
A CALIFORNIA MUNICIPAL ENTITY;
DOES, 1-100, INCLUSIVE,
Defendants.

28a
Appendix C
ORDER
Before: SCHROEDER and FRIEDLAND, Circuit
Judges, and SILVER,* District Judge.
The panel has voted to deny the petition for panel
rehearing. Judge Friedland has voted to deny the petition
for rehearing en banc, and Judges Schroeder and Silver
have so recommended.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition for panel rehearing and rehearing en
banc are DENIED.

*. The Honorable Roslyn O. Silver, United States District
Judge for the District of Arizona, sitting by designation.

